TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Fuel Excise Tax Compliance Program
                 Has Made Significant Progress, but Program
                   Improvements Are Needed to Increase
                        Highway Trust Fund Revenue



                                        March 30, 2009

                            Reference Number: 2009-20-051




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 30, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Fuel Excise Tax Compliance Program Has
                             Made Significant Progress, but Program Improvements Are Needed to
                             Increase Highway Trust Fund Revenue (Audit # 200820006)

 This report presents the results of our review to determine whether the Excise Files Information
 Retrieval System (ExFIRS) has been effectively implemented to enhance tax enforcement
 activities and increase Highway Trust Fund revenue. This review was part of our Fiscal
 Year 2008 audit plan coverage under the major management challenge of Modernization of the
 Internal Revenue Service (IRS).

 Impact on the Taxpayer
 The IRS established the Excise Compliance Operations organization in November 2005 and has
 made significant progress in improving motor fuel excise tax compliance. The IRS has
 implemented electronic filing requirements for excise tax reporting documents, and through its
 examination process, assessed almost $135 million in additional taxes through April 2008.
 However, improvements are needed in the areas of compliance and penalty program
 effectiveness, properly transferring payments to the Highway Trust Fund, measuring program
 results, and submitting required reports. Improvements in these areas will improve the
 effectiveness of the ExFIRS Compliance Program and reduce motor fuel excise tax evasion.

 Synopsis
 The Highway Trust Fund was established as a mechanism to provide dependable financing for
 Federal Government highway construction and is a critical source of funding for Department of
 Transportation (DOT) programs. Motor fuel excise tax receipts total $30 billion to $40 billion
                   The Fuel Excise Tax Compliance Program Has Made Significant
                    Progress, but Program Improvements Are Needed to Increase
                                    Highway Trust Fund Revenue


annually and account for more than 90 percent of Highway Trust Fund receipts. Motor fuel
excise tax evasion is estimated to be from $1 billion annually to as much as 25 percent of total
revenues. 1 Since Fiscal Year 1999, Congress has appropriated almost $160 million to the IRS
from the Highway Trust Fund for ExFIRS development and compliance efforts.
The IRS has taken actions to improve the ExFIRS Compliance Program and address concerns
identified in our prior audit report. 2 These actions include holding ongoing meetings with the
Federal Highway Administration (FHWA) to identify and resolve ongoing issues or concerns,
implementing an outreach and education initiative to ensure awareness of the new electronic
filing requirements, and issuing annual status reports to the DOT describing the project and
enforcement activities and results. The IRS established two new organizations and identified
seven motor fuel strategies to better understand areas of fuel tax compliance and noncompliance,
and the ExFIRS Compliance Team began performing penalty reviews, educating taxpayers
regarding filing requirements, identifying non-filers, and assessing penalties for noncompliance.
While significant actions have been taken, additional improvements are needed to ensure a more
effective ExFIRS Compliance Program. Foremost, the IRS needs to work with the FHWA to
develop a more accurate and current estimate of the potential motor fuel excise tax compliance
gap. The IRS has questioned the reliability of existing estimates, but has not yet established a
reliable excise tax evasion estimate or the current compliance rate. A current and reliable
estimate of the size and makeup of the potential motor fuel excise tax gap will provide the IRS
and the FHWA with information needed to ensure program resources are effectively focused on
identified tax gap areas. Focusing program resources on identified tax gap areas will also allow
the IRS to measure the effectiveness of the ExFIRS Compliance Program in reducing the tax
gap.
In addition, information reporting gaps in the movement of motor fuel continue because the IRS
currently does not receive product receipt and disbursement information from refineries similar
to information received from fuel terminals. Since Fiscal Year 2006, the IRS identified more
than 12,000 tax periods for review that are associated with potentially noncompliant terminals.
The IRS can assess penalties of $10,000 for each tax period that terminal operators fail to file in
a timely manner and/or furnish accurate information and do not present reasonable cause for
such failures. 3 The IRS uses the penalty primarily as a tool to compel noncompliant taxpayers
into compliance rather than as remedial consequences or monetary sanctions against taxpayers

1
  The estimate was obtained from the FHWA Office of Transportation Policy Studies web site, which qualifies the
estimate by citing, “Numerous research projects have tried to determine losses resulting from motor fuel tax evasion.
Estimates have been made by non-FHWA sources during Congressional testimony, through econometric and
statistical analyses, as well as through revenue modeling, with results varying from about $1 billion annually to as
much as 25 percent of total revenues. Reliable estimates of evasion are not available.”
2
  The Excise Files Information Retrieval System Has Not Been Effectively Implemented (Reference
Number 2006-20-001, dated October 2005).
3
  26 U.S.C. Sec. 6725.
                                                                                                                   2
                     The Fuel Excise Tax Compliance Program Has Made Significant
                      Progress, but Program Improvements Are Needed to Increase
                                      Highway Trust Fund Revenue


for their noncompliance. Still, a significant portion of the $120 million in potential penalties
could be assessed.
The program to review the potential penalty assessments continues to mature, and the number of
terminals in compliance with electronic filing has increased. Initially, the IRS was not
consistently assessing the penalty, and we identified a significant number of cases identified for
potential assessment of a penalty that were worked to closure with no penalty being assessed. As
the program matures, the IRS has become more consistent in applying penalties when
appropriate and working the cases. However, we found that the penalties that have been
collected were not properly handled. The IRS collected approximately $1.7 million in penalty
assessments as of September 10, 2008, but the funds were deposited in the general fund and not
transferred to the Highway Trust Fund as required.
Improvements to the program measures used to evaluate the ExFIRS Compliance Program are
also needed. The IRS captures and reports information such as the status, age, and results of
compliance cases. However, these measures do not provide information regarding program
effectiveness in addressing areas with the highest risk for noncompliance. Once a valid estimate
of the motor fuel excise tax compliance gap is developed, measures and outcomes such as return
on investment, change in excise tax gap, and change in compliance rate would provide better
program effectiveness information.
We also found that reported ExFIRS compliance-related information is not fully representative
of program results or submitted to the DOT in a timely manner. The IRS issued annual status
reports to the DOT and included the information agreed to in the Memorandum of
Understanding 4 between the IRS and the DOT. However, IRS management did not use data
from the official IRS tax accounts available via the Integrated Data Retrieval System, but rather
data from another system used to report enforcement revenue for the report. In addition, updated
information (i.e., consideration of penalty abatements) for multiple fiscal years was not
presented. As a result, as of September 10, 2008, the difference between the amount of penalty
assessments reported in the Fiscal Years 2006 and 2007 annual status reports and the net
assessments reported in the Integrated Data Retrieval System total $4,965,000 and $800,000,
respectively. In addition, the status reports are due to the DOT by September 30 each year;
however, the IRS did not issue the Fiscal Years 2006 and 2007 annual status reports until
April 6, 2007, and March 28, 2008, respectively.




4
    See Appendix VIII for a glossary of terms.
                                                                                                   3
                The Fuel Excise Tax Compliance Program Has Made Significant
                 Progress, but Program Improvements Are Needed to Increase
                                 Highway Trust Fund Revenue



Recommendations
We recommended that the Commissioner, Small Business/Self-Employed Division, ensure that
1) information reporting at the refineries is implemented; 2) the amount of the motor fuel excise
tax gap and the compliance rate are validated; 3) the Examination Returns Control System
tracking fuel strategy cases is updated to allow tracking of cases identifiable by multiple
strategies; 4) measures for the components of the motor fuel evasion program are developed to
assess the successes and identify opportunities to redirect resources, if necessary; 5) the penalty
for failure to file timely and accurate information documents is applied consistently to all
taxpayers; 6) funds collected from the assessment of ExFIRS compliance-related penalties are
transferred to the Highway Trust Fund; 7) performance measures and outcomes are developed
and used to assess program effectiveness in improving fuel tax compliance; 8) the penalty
information contained in the annual status report to the DOT is based on information obtained
from the Integrated Data Retrieval System; 9) the annual status reports are enhanced to show
penalty assessments, abatements, funds collected, and transfers for multiple years; and 10) the
annual status reports to the DOT are issued by September 30 as required by law.

Response
IRS management agreed with or agreed in principle with eight recommendations, disagreed with
two recommendations, and questioned the outcome measures contained in the audit report. The
corrective actions taken or planned to be taken include developing a strategy document outlining
potential actions for implementing information reporting at refineries; working with the FHWA
and other Federal and State partners to determine the feasibility of developing the methodologies
needed to estimate the motor fuel excise tax gap; taking actions to strengthen the penalty program;
coordinating with the Chief Financial Officer to ensure that collected amounts of assessed
ExFIRS penalties are properly certified and transferred to the Highway Trust Fund; and
developing a report format that will incorporate penalty assessments and abatements and
accelerating data analysis in order to deliver future reports by November 30.
However, management disagreed with the recommendation to ensure that performance measures
and outcomes such as return on investment, compliance rate, and change in excise tax gap are
developed and used to assess program effectiveness in improving fuel tax compliance.
Management commented that, while such measures can be used as long-term strategic goals, they
should not be used as performance measures. Management also disagreed with the
recommendation that penalty information contained in the annual status report to the DOT be
based on information obtained from the Integrated Data Retrieval System. Management
commented that the Information Data Retrieval System reports single account results, while the
Enforcement Revenue Information System reports cumulative results and is, therefore, a more
suitable reporting tool for complete fiscal year results. Management’s complete response to the
draft report is included as Appendix IX.
                                                                                                      4
                The Fuel Excise Tax Compliance Program Has Made Significant
                 Progress, but Program Improvements Are Needed to Increase
                                 Highway Trust Fund Revenue



Office of Audit Comment
IRS management stated that they strongly agree that a credible estimate of the motor fuel tax gap
would be beneficial to tax administration and policy makers. However, the corrective actions
planned result in determining only the feasibility of estimating the tax gap, rather than the
identification of a valid estimate of the motor fuel tax gap and compliance rate. Until a valid
estimate of the tax gap and compliance rate is identified, the IRS and the FHWA continue to risk
inefficiently expending resources on initiatives that might not contribute to the reduction of the
excise tax gap, not increase the compliance rate, and not significantly increase Highway Trust
Fund receipts.
Because the IRS is using Highway Trust Fund monies to develop the ExFIRS and to fund related
compliance efforts, we believe measures and outcomes such as return on investment, compliance
rate, and change in excise tax gap are necessary to assess the IRS’ effectiveness in using
Highway Trust Fund money to improve motor fuel tax compliance. Also, while we did not
independently validate the cumulative results reported in the Enforcement Revenue Information
System, our comparison of the annual status report information and taxpayer account information
obtained from the Integrated Data Retrieval System identified inconsistencies. Therefore, we believe
the Integrated Data Retrieval System is a better source for reporting program results.
IRS management commented that they have reservations about the validity of the outcome
measure “Increased Revenue – Actual; $1.7 million” due to the very small case sample upon
which it relies. However, the outcome we are reporting is an actual amount, not a projection
based on a sample. We reviewed 16 taxpayer accounts that were assessed a penalty and
determined that the IRS collected approximately $1.7 million in penalty assessments as of
September 10, 2008, but the payments were not transferred to the Highway Trust Fund as
required.
IRS management also questioned the justification for the outcome measure “Reliability of
Information – Actual; 5,765,000.” Management stated the annual report accurately reflected
fiscal year end aggregate data required by the FHWA. However, the IRS is required to establish
management controls to ensure that timely, reliable, and complete information is obtained,
maintained, reported, and used for decision making. By not providing the detailed information
in its annual status report, the IRS did not report complete and reliable program results to the
FHWA. Also, Figure 5 in the report shows that the 2007 Fiscal Year-end aggregate data are not
accurate, and we stand by the amount of the outcome measures reported.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services), at (202) 622-8510.


                                                                                                   5
                      The Fuel Excise Tax Compliance Program Has Made Significant
                       Progress, but Program Improvements Are Needed to Increase
                                       Highway Trust Fund Revenue




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Actions Have Been Taken to Improve the Excise Files Information
          Retrieval System Compliance Program ........................................................Page 4
          Improvements Are Needed to Ensure a More Effective Compliance
          Program.........................................................................................................Page 5
                    Recommendations 1 through 3:.........................................Page 8

                    Recommendation 4:........................................................Page 9

          The Failure to File Penalty Program Can Be Improved ...............................Page 9
                    Recommendation 5:........................................................Page 16

          Failure to File Penalty Payments Are Not Transferred to the Highway
          Trust Fund.....................................................................................................Page 16
                    Recommendation 6:........................................................Page 17

          Improvements Are Needed to Effectively Measure Results of
          Compliance Program Activities....................................................................Page 18
                    Recommendation 7:........................................................Page 18

          Reports on Program Results Are Not Fully Representative or Timely
          Submitted ......................................................................................................Page 19
                    Recommendations 8 and 9: ..............................................Page 22

                    Recommendation 10: ......................................................Page 23


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 24
          Appendix II – Major Contributors to This Report ........................................Page 26
          Appendix III – Report Distribution List .......................................................Page 27
            The Fuel Excise Tax Compliance Program Has Made Significant
             Progress, but Program Improvements Are Needed to Increase
                             Highway Trust Fund Revenue



Appendix IV – Outcome Measures...............................................................Page 28
Appendix V – Legislative Changes That Impact Fuel Tax Compliance ......Page 30
Appendix VI – Subsystems of the Excise Files Information Retrieval
System...........................................................................................................Page 32
Appendix VII – Prior Audit Report Recommendations Relating to the
Compliance Program and Associated Corrective Actions Completed .........Page 34
Appendix VIII – Glossary of Terms .............................................................Page 37
Appendix IX – Management’s Response to the Draft Report ......................Page 39
          The Fuel Excise Tax Compliance Program Has Made Significant
           Progress, but Program Improvements Are Needed to Increase
                           Highway Trust Fund Revenue




                         Abbreviations

DOT                Department of Transportation
ExFIRS             Excise Files Information Retrieval System
ExSTARS            Excise Summary Terminal Activity Reporting System
FHWA               Federal Highway Administration
IRS                Internal Revenue Service
SB/SE              Small Business/Self-Employed
                   The Fuel Excise Tax Compliance Program Has Made Significant
                    Progress, but Program Improvements Are Needed to Increase
                                    Highway Trust Fund Revenue




                                             Background

The Internal Revenue Service (IRS) administers more than 40 separate excise taxes that finance
6 separate trust funds 1 for special programs within the Federal Government. One of these trust
funds is the Highway Trust Fund, which was established as a mechanism to provide dependable
financing for Federal Government highway construction and is a critical source of funding for
Department of Transportation (DOT) programs. The Highway Trust Fund receives its revenue
from highway use taxes, including excise taxes on motor fuels and truck-related taxes on truck
tires, sales of trucks and trailers, and heavy vehicle use. Motor fuel excise tax receipts total
$30 billion to $40 billion annually and account for more than 90 percent of Highway Trust Fund
receipts.
Throughout the 1980s and early 1990s, motor fuel excise tax evasion schemes were perpetrated
by organized crime syndicates. To reduce the opportunities for taxpayers to evade motor fuel
excise taxes, several legislative and regulatory changes have
been enacted. 2 One of the legislative changes that was
enacted moved the point of taxation for motor fuels so that           Motor fuel excise tax
gasoline, diesel fuel, and kerosene are now taxed upon             receipts  total $30 billion to
                                                                      $40 billion annually;
removal from a terminal. A regulatory change made the              however, motor fuel excise
position holder (i.e., the person holding the position in the fuel tax evasion estimates vary
on the records of the terminal operator) the person liable for     from $1 billion annually to
this tax. Position holders report their excise tax liabilities on    as much as 25 percent
Quarterly Federal Excise Tax Returns (Form 720).                        of total revenues.

Within the IRS, the Specialty Programs organization under the
Small Business/Self-Employed (SB/SE) Division is charged with motor fuel excise tax
compliance. Partnering with the IRS, the DOT Federal Highway Administration (FHWA) is
responsible for stewardship of the Highway Trust Fund and administration of the FHWA’s motor
fuel tax evasion program.
Motor fuel excise tax evasion is estimated to be from $1 billion annually to as much as
25 percent of total revenues. 3 In June 1998, Congress passed the Transportation Equity Act for


1
  See Appendix VIII for a glossary of terms.
2
  See Appendix V for several of the major legislative changes impacting fuel tax compliance.
3
  The estimate was obtained from the FHWA Office of Transportation Policy Studies web site which qualifies the
estimate by citing, “Numerous research projects have tried to determine losses resulting from motor fuel tax evasion.
Estimates have been made by non-FHWA sources during Congressional testimony, through econometric and
statistical analyses, as well as through revenue modeling, with results varying from about $1 billion annually to as
much as 25 percent of total revenues. Reliable estimates of evasion are not available.”
                                                                                                            Page 1
                     The Fuel Excise Tax Compliance Program Has Made Significant
                      Progress, but Program Improvements Are Needed to Increase
                                      Highway Trust Fund Revenue



the 21st Century 4 authorizing the IRS to use Highway Trust Fund monies to expand enforcement
efforts, supplement examinations and criminal investigations, and develop an excise fuel
reporting system. The IRS collects the motor fuel excise taxes for the DOT and has developed
the Excise Files Information Retrieval System (ExFIRS) to facilitate the reporting and payment
of motor fuel excise taxes. Figure 1 provides a breakdown of the almost $160 million
appropriated from the Highway Trust Fund for ExFIRS development and compliance efforts.
                               Figure 1: ExFIRS Project Office Appropriations
                                         (Fiscal Years 1999 – 2008)

                                 Information
              Fiscal             Technology             Compliance and
              Year(s)            Development           Support Activities               Totals
           1999 – 2004*                $39,897,755              $10,990,938              $50,888,693
               2005**                   $3,600,000               $1,400,000               $5,000,000
               2006**                  $34,800,000               $8,000,000              $42,800,000
               2007**                  $42,300,000               $9,000,000              $51,300,000
               2008**                            $0             $10,000,000              $10,000,000
                Total            $120,597,755***                $39,390,938             $159,988,693
          Source: Treasury Inspector General for Tax Administration report, The Excise Files Information
          Retrieval System Has Not Been Effectively Implemented (Reference Number 2006-20-001, dated
          October 2005), and the January 2006 Memorandum of Understanding between the DOT and the IRS.
          * Actual expenditures.
          ** Spend plan estimates.
          *** $32,400,000 of the $120,597,755 was allocated to the Excise Tax E-File and Compliance system
          development. The remainder of the information technology funds was used for ExFIRS development and
          operations and maintenance.

The ExFIRS is a system comprised of six subsystems that support the collection of motor fuel
industry information and is used to conduct automated analysis of this information to identify
areas with the highest risk for nonpayment of motor fuel excise tax liabilities. A description of
the subsystems is provided in Appendix VI.
The most critical ExFIRS subsystem is the Excise Summary Terminal Activity Reporting System
(ExSTARS), which was designed through a collaborative effort among the IRS, the FHWA,
State governments, and fuel industry stakeholders to detect and prevent the existence of illegal
tax evasion schemes by tracking the movement of motor fuel to and from approved terminals.
The IRS began development of the ExSTARS in Fiscal Year 1998 and reported to Congress that


4
    Pub. L. No. 105-178, 112 Stat. 107 (1998).
                                                                                                        Page 2
                     The Fuel Excise Tax Compliance Program Has Made Significant
                      Progress, but Program Improvements Are Needed to Increase
                                      Highway Trust Fund Revenue



the subsystem was implemented in April 2001. In addition, the compliance process of data
matching to detect underreported tax was planned to start in the calendar quarter beginning in
January 2004. However, in April 2005, the IRS reported to Congress that the use of the
ExSTARS to detect underreported tax had been limited because only 70 percent of the 6 million
to 9 million monthly fuel transactions were received electronically, and it would be cost
prohibitive to transcribe the detailed information from the remaining 30 percent of monthly fuel
transactions that are filed on paper in order to match data using the ExSTARS.
In November 2005, the IRS initiated broad-based and individual outreach and education
activities to taxpayer entities that were filing paper returns to ensure that all filers understood the
electronic filing requirements 5 for excise tax reporting documents and could begin electronically
filing their fuel transactions using a new electronic data transmission format. The IRS also
developed a schedule for converting all filers to the new electronic data transmission format.
Anticipating increased electronic filings due to its outreach and education efforts, the IRS began
to use the ExFIRS to perform data matching in April 2006.
This review was performed at the SB/SE Division’s Excise Tax Program offices in
Washington, D.C., during the period October 2007 through November 2008. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




5
    Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                                Page 3
                  The Fuel Excise Tax Compliance Program Has Made Significant
                   Progress, but Program Improvements Are Needed to Increase
                                   Highway Trust Fund Revenue




                                     Results of Review

Actions Have Been Taken to Improve the Excise Files Information
Retrieval System Compliance Program
In a prior audit report,6 we made seven recommendations to improve the ExFIRS systems
development project and compliance program. Appendix VII provides details on the
recommendations related to the compliance program and the corrective actions taken by the IRS.
The status of the systems development recommendations and corrective actions will be reviewed
in a separate audit. Office of Management and Budget Circular A-50, Audit Follow-Up,
emphasizes the importance of followup to monitor the implementation of resolved audit
recommendations and ensure that promised corrective action is actually taken.
Generally, the IRS has taken the following significant actions to improve the compliance
program and address concerns identified in our prior report:
    •   Holds bi-monthly conference calls and quarterly meetings with the FHWA to identify,
        discuss, and resolve ongoing issues, problems, and concerns. The IRS also submits
        annual status reports to the Secretary of the DOT describing the project and enforcement
        activities and results. In addition, the IRS provides information on electronic filing and
        the number of ExFIRS-generated field referrals.
    •   Established the Excise Compliance Operations organization in November 2005. In
        addition, the National Fuel Territory organization was established to monitor and
        improve compliance for the excise tax on fuels with plans to use forensic accounting
        techniques to ensure fuel tax compliance. The IRS also identified seven motor fuel
        strategies to better understand areas of fuel tax compliance and noncompliance. Using
        these strategies, fuel policy analysts began conducting data matching analysis and
        referring leads for examinations in April 2006. As of April 2008, $134,789,712 in taxes
        had been assessed.
    •   Implemented broad-based and individual outreach and education initiatives for
        businesses filing paper returns that were required to file electronically (i.e., terminals
        with 25 or more reportable transactions per month) beginning on January 1, 2006. The
        initiatives were implemented to ensure awareness of the new electronic filing
        requirements for excise tax reporting documents and a smooth transition to the new


6
 The Excise Files Information Retrieval System Has Not Been Effectively Implemented (Reference
Number 2006-20-001, dated October 2005).
                                                                                                 Page 4
                The Fuel Excise Tax Compliance Program Has Made Significant
                 Progress, but Program Improvements Are Needed to Increase
                                 Highway Trust Fund Revenue



       electronic filing format. In addition, letters were issued to the fuel industry regarding
       failure to file and failure to register penalties and the schedule for conversion to the new
       electronic filing format. Onsite visitations were also made to software vendors and third-
       party transmitters regarding compliance. The ExFIRS Compliance Team also began
       performing penalty reviews, educating taxpayers regarding excise tax filing requirements,
       and using information from the ExSTARS to identify excise tax non-filers and assessing
       penalties for noncompliance. In addition, the IRS continued to run both electronic data
       transmission formats through June 30, 2008, 2½ years after the mandated electronic filing
       deadline to provide taxpayers with sufficient time to transition to the new electronic data
       transmission format.
The above actions generally address our previous recommendations and have improved the
effectiveness and efficiency of the ExFIRS Compliance Program. The corrective actions also
address the Office of Management and Budget Circular A-123, Management’s Responsibility for
Internal Control, which requires agencies to take timely and effective action to correct
management control deficiencies and to complete implementation of agreed corrective actions
within 1 year to the extent practicable.
While the IRS has taken several steps to improve the ExFIRS Compliance Program, there are
several areas including the penalty program, penalty payments transferred to the Highway Trust
Fund, and measuring and reporting program results that need to be improved to ensure a more
effective compliance program.

Improvements Are Needed to Ensure a More Effective Compliance
Program
The IRS needs to work with the FHWA to develop a more accurate and current estimate of the
potential motor fuel excise tax compliance gap. The estimates of the amount of motor fuel tax
evasion are varied and none appear to be statistically reliable. The estimates we identified place
the range of tax evasion to be from $1 billion annually to as much as 25 percent of total
revenues. The IRS has questioned the reliability of existing estimates, but has not yet established
a reliable excise tax evasion estimate or the current compliance rate. A current and reliable
estimate of the size and makeup of the potential motor fuel excise tax gap will provide the IRS
and the FHWA with information needed to ensure program resources are effectively focused on
identified tax gap areas. Focusing program resources on identified tax gap areas will also allow
the IRS to measure the effectiveness of the ExFIRS compliance program in reducing the tax gap.
In addition, the IRS currently does not receive product receipt and disbursement information
from refineries similar to the information received from fuel terminals, resulting in a fuel
information reporting gap. Therefore, the Excise Tax Program cannot use the ExSTARS to
obtain a complete understanding of the products flowing into and out of the refineries and, as a
result, the effectiveness of the compliance program is limited.

                                                                                            Page 5
                The Fuel Excise Tax Compliance Program Has Made Significant
                 Progress, but Program Improvements Are Needed to Increase
                                 Highway Trust Fund Revenue



The IRS has conducted talks with the oil industry on an initiative to institute refinery reporting
similar to the current terminal reporting via the ExSTARS. Despite these discussions, refinery
reporting has not been implemented. IRS management has received a limited amount of
information from a refinery to test how the information might be used. The IRS also established
a motor fuel tax strategy focused on conducting refinery compliance reviews. However, these
reviews are conducted at the refinery location and are labor intensive.
To aid in better understanding areas of fuel compliance and noncompliance, the IRS developed
and implemented seven motor fuel strategies. The strategies were developed by conducting
brainstorming sessions with subject matter experts from Federal and State agencies and the fuel
industry to identify how fuel excise tax could be evaded and considering allegations of
noncompliance activity. These strategies were not created to address specific known excise tax
gap areas and are not evaluated to assess the effectiveness of the strategies in addressing the
excise tax gap.
In addition, in implementing the strategies, the IRS does not currently ensure that reliable fuel
strategy-related information is obtained, maintained, reported, and ultimately used for decision
making. For example, cases identified for examination might originate from one or more of the
fuel strategies. Unique four-digit tracking codes are identified for each of the seven fuel
strategies. However, the Examination Returns Control System used to track the results only
records one tracking code per case. As a result, the dollars assessed are not currently tracked by
multiple strategies. In Fiscal Year 2007, the IRS reported only two of seven strategies had tax
assessments, and as of April 2008, only three of seven strategies had tax assessments. IRS
management agreed that until it breaks down the number and type of strategies for each case
along with the associated dollars assessed per strategy, it cannot be assured of reporting reliable
information. A program analyst has begun tracking the results of cases identifiable by multiple
fuel strategies. IRS management also commented that the fact that the strategies have not
resulted in a significant number of compliance cases suggests the allegations the strategies are
based on are largely not true.
The Joint Operations Center for National Fuel Tax Compliance is under development and is
dedicated to the mission of expanding motor fuel tax compliance activities, fostering interagency
and multi-national cooperation, and providing strategic analyses of domestic and foreign motor
fuel distribution trends and patterns. The Joint Operations Center will leverage resources across
Federal and State agencies, allowing Federal and State field agents to conduct joint
investigations of specific targets that are identified and developed through the analysis of IRS,
State, and third-party data sources. The Joint Operations Center, in association with the Energy
Information Administration and the United States Army Corps of Engineers, is moving to
acquire additional data sources and identify and track fuel production and movement beyond that
previously allowed by the ExSTARS. The Energy Information Administration will allow the
ExSTARS fuel distribution data to be tied to fuel industry-provided data concerning petroleum
production and movement, while the United States Army Corps of Engineers will provide lock

                                                                                             Page 6
                     The Fuel Excise Tax Compliance Program Has Made Significant
                      Progress, but Program Improvements Are Needed to Increase
                                      Highway Trust Fund Revenue



and trip report data filed by barge operators on the inland waterway system. The compiled data
will then be used to track and trend fuel movement within the nation’s fuel distribution system to
identify areas resistant to compliance; develop baselines for measuring fuel supply, distribution,
and consumption; enable the Joint Operations Center to identify suspicious activities and tax
evasion schemes; and perform economic analyses. At the heart of the Joint Operations Center, a
national data center is being created and modeled after the Financial Crimes Enforcement
Network. Both the Joint Operations Center and the National Data Center are funded solely with
Highway Trust Fund monies.
The Joint IRS and FHWA Strategy to Address Fuel Tax Noncompliance incorporates many of
the activities currently ongoing. The strategy also includes another element to develop program
measures for the components of the motor fuel tax evasion program to assess the successes, and
identify opportunities to redirect resources, if necessary. However, measures have not been fully
developed for the program components for use in evaluating effectiveness or reapplying
resources.
Office of Management and Budget Circular A-123 requires that management controls be
established to ensure that programs and resources are protected from waste, fraud, and
mismanagement and that timely, reliable, and complete information is obtained, maintained,
reported, and used for decision making. Congress enacted the Government Performance and
Results Act of 1993 7 to improve the efficiency and effectiveness of Federal programs by
establishing a system to set goals for program performance and to measure results. The Act
stipulates that each program activity will establish performance goals, measure performance,
compare actual performance to the goals, and report on program performance.
IRS management advised us that the lack of refinery reporting was a significant problem in its
attempt to track fuel, detect evasion, or measure compliance and that it cannot discuss legislative
proposals with Congress unless initially approached by Congress. IRS management also advised
us that it has not estimated the amount of the motor fuel excise tax gap or determined the
compliance rate due to a lack of resources. Without complete information to effectively track the
movement of fuel, there is an increased risk of excise tax evasion. In addition, without
determining the amount and source of the excise tax gap and the compliance rate, the IRS and
the FHWA risk inefficiently expending resources on initiatives that might not contribute to the
reduction of the excise tax gap, increase the compliance rate, and significantly increase Highway
Trust Fund receipts.




7
    Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered section of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                                                                                                               Page 7
               The Fuel Excise Tax Compliance Program Has Made Significant
                Progress, but Program Improvements Are Needed to Increase
                                Highway Trust Fund Revenue



Recommendations
The Commissioner, SB/SE Division, should ensure that:
Recommendation 1: The Excise Tax Program continues to work with oil industry
representatives to implement information reporting at the refineries. If these efforts are
unsuccessful, the Excise Tax Program should pursue regulatory options by working with the
Department of the Treasury and/or the Office of Legislative Affairs to propose
regulations/legislation requiring oil companies to file information documents reporting the
products received at and transported from refineries.
       Management’s Response: Management agreed to work with oil industry
       representatives to implement information reporting at the refineries. Although sustained
       implementation efforts will remain contingent upon IRS strategic priorities and funding,
       the IRS is currently partnering with industry and identifying refinery reporting
       requirements. Management will develop a strategy document by October 15, 2009,
       outlining potential actions for implementing information reporting at refineries.
Recommendation 2: The Excise Tax Program works with the FHWA to validate the amount
of the motor fuel excise tax gap and the compliance rate.
       Management’s Response: Management agreed in principle with this
       recommendation because a credible estimate of the motor fuel excise tax does not exist.
       The tax gap consists of three mutually exclusive types of noncompliance: filing,
       reporting, and payment noncompliance. Each component of the tax gap requires a
       different estimation strategy. Management has taken steps to ensure reporting of fuel
       transactions and develop methodologies to estimate the tax gap. However, the IRS will
       need to assess whether additional data are needed. Management will work with Federal
       and State partners, including the FHWA, to determine the feasibility of developing the
       methodologies needed to estimate motor fuel excise tax gap.
       Office of Audit Comment: IRS management stated that they strongly agree that a
       credible estimate of the motor fuel tax gap would be beneficial to tax administration and
       policy makers. However, the corrective actions to be taken in response to this
       recommendation result in determining only the feasibility of estimating the tax gap,
       rather than the identification of a validated estimate of the motor fuel tax gap and
       compliance rate. Until a valid estimate of the tax gap and compliance rate is identified,
       the IRS and the FHWA continue to risk inefficiently expending resources on initiatives
       that might not contribute to the reduction of the excise tax gap, not increase the
       compliance rate, and not significantly increase Highway Trust Fund receipts.
Recommendation 3: The Examination Returns Control System tracking the fuel strategy
cases is updated to allow tracking of cases identifiable by multiple strategies.


                                                                                          Page 8
                     The Fuel Excise Tax Compliance Program Has Made Significant
                      Progress, but Program Improvements Are Needed to Increase
                                      Highway Trust Fund Revenue



           Management’s Response: Management agreed in principle with this
           recommendation. However, at this time, only one tracking code may be entered into the
           Examination Returns Control System on each controlled tax period. It would not be cost
           effective to make a significant computer programming change to the Examination
           Returns Control System to allow entry of multiple tracking codes for the limited number
           of multiple coded excise tax returns annually. (Fewer than 800 Forms 720 with multiple
           tracking codes were received during Fiscal Year 2008.)
           During 2008, the Excise Tax Program developed a Fuel Strategy Feedback Sheet to
           capture the completed case results of field operations. The Feedback Sheet lists all fuel
           strategies and is used to record the associated tax adjustment amounts for each. It is also
           used to gather case information to evaluate the effectiveness of each fuel strategy in order
           to improve issue identification. Results from the Feedback Sheets are aggregated in a
           monthly progress report about fuel strategies for Small Business/Self-Employed Division
           management. Management will continue to use the Fuel Strategy Feedback Sheets to
           compile and evaluate data on returns evidencing multiple fuel strategies.
           Office of Audit Comment: While the IRS does not plan to update the Examination
           Returns Control System to allow entry of multiple tracking codes due to the cost
           effectiveness of the computer programming changes, we agree the manual process
           implemented will provide similar information.
Recommendation 4: The Excise Tax Program works with the FHWA and completes the
element in the Joint IRS and FHWA Strategy to Address Fuel Tax Noncompliance to develop
program measures for the components of the motor fuel evasion program to assess the successes
and identify opportunities to redirect resources, if necessary.
           Management’s Response: Management agreed with this recommendation. The
           Excise Tax Joint Operations Center has already taken actions to complete this
           recommendation. It has established strategic data analysis and compliance initiatives to
           identify and address motor fuel tax evasion activities. The IRS and the FHWA meet
           bi-monthly to discuss Joint Operations Center analysis and initiatives. The IRS includes
           the results of fuel tax evasion efforts and associated resource management in its annual
           report to the FHWA.

The Failure to File Penalty Program Can Be Improved
The IRS began identifying taxpayer entities in Fiscal Year 2006 for potential assertion of the
$10,000 penalty under Internal Revenue Code Section 6725 8 for failure to file in a timely manner
and/or furnish accurate information to the ExSTARS and not presenting reasonable cause for
such failures. Prior to January 1, 2005, the penalty was only $50 per failure and the IRS

8
    26 U.S.C. Sec. 6725.
                                                                                                Page 9
                The Fuel Excise Tax Compliance Program Has Made Significant
                 Progress, but Program Improvements Are Needed to Increase
                                 Highway Trust Fund Revenue



acknowledges noncompliance had been extremely high because taxpayers had little incentive for
voluntary compliance. In fact, taxpayers sometimes elected to pay the penalty rather than incur
the costs associated with becoming compliant with the electronic filing requirements. The
ExSTARS Penalty Compliance Program established a 100 percent filing compliance goal and
initiated a process for ensuring that every terminal is assigned to a fuel tax analyst for
compliance reviews. As a result, since Fiscal Year 2006, more than 12,000 tax periods
associated with potentially noncompliant terminals were identified for compliance reviews.
Based on the number of tax periods, maximum penalty assessments could total more than
$120 million (12,000 tax periods x $10,000), if reasonable cause was not applicable. While
many of the terminal operators would have a reasonable cause for not timely or accurately filing
information, there could still be a significant portion of the $120 million in potential penalty
assessments that could be assessed.
The ExSTARS Penalty Compliance Program that reviews the potential penalty assessments
continues to mature and the number of terminals in compliance with electronic filing has
increased, but improvements are needed to ensure a more effective penalty program. The
increased penalty amount captured taxpayers’ attention. However, in our opinion, initially the
IRS was not consistently assessing the penalty under Internal Revenue Code Section 6725. The
IRS uses the penalty primarily as a tool to compel noncompliant taxpayers into compliance
rather than as remedial consequences or monetary sanctions against taxpayers for their
noncompliance. Once the taxpayers are in full compliance, the penalty is most often abated in
part or with a full Federal Government concession. For example, our review of 10 cases
determined that the IRS assessed approximately 18 percent of the maximum penalty amounts, if
reasonable cause did not apply. For purposes of establishing reasonable cause, ordinary business
care and prudence includes making provisions for business obligations to be met when
reasonable foreseeable events occur. In addition, it requires that the taxpayer continue to attempt
to meet the requirements even though late. Figure 2 summarizes the maximum penalty, without
application of reasonable cause or penalty appeals, and actual penalties identified for the
10 cases reviewed.




                                                                                           Page 10
                      The Fuel Excise Tax Compliance Program Has Made Significant
                       Progress, but Program Improvements Are Needed to Increase
                                       Highway Trust Fund Revenue



system is jeopardized. In addition, when penalties are not assessed and collected for
noncompliance, critical funding for the nation’s Highway Trust Fund is lost.

Recommendation
Recommendation 5: The Commissioner, SB/SE Division, should ensure the Excise Tax
Program applies the penalty for failure to file timely and accurate information documents
consistently to all taxpayers.
           Management’s Response: Management agreed that penalties should be
           administered in a consistent manner. The Excise Tax Program has taken actions since
           2006 to strengthen the penalty program and will continue efforts in this area. An
           ExSTARS Compliance Manager position was established and four analysts were hired
           and trained to staff the Penalty Compliance team. Management developed procedural
           guidelines, quality reviews, and managerial oversight to assure consistent application of
           penalties for failure to file timely and accurate information documents to all taxpayers.
           The IRS has proactively educated taxpayers about information reporting requirements,
           including mandatory electronic reporting, implemented processes for considering
           reasonable cause penalty relief, and established an Appeals Settlement Procedure. For
           these reasons, management stated that no additional corrective actions are planned.
           Office of Audit Comment: The issues raised in the audit report were identified during
           the initiation of the penalty program. As the program matures, penalties are being
           administered more consistently. We agree that additional corrective actions are not
           needed at this time.

Failure to File Penalty Payments Are Not Transferred to the Highway
Trust Fund
Our review of 16 taxpayer accounts that were assessed a penalty as authorized by Internal
Revenue Code Section 6725 (i.e., for failure to file a report or to furnish information required in
a report required by the ExSTARS) determined that the IRS collected approximately $1.7 million
in penalty assessments as of September 10, 2008. However, the payments were deposited in the
general fund and not transferred to the Highway Trust Fund as required.
The Internal Revenue Code states that any penalty amount designated to be assessed and
ultimately collected under Internal Revenue Code Section 6725 is to be appropriated to the
Highway Trust Fund. 10 The monies collected are not being transferred to the Highway Trust
Fund because there is no process in place to certify the collected penalty monies or to directly
transfer the funds to the Highway Trust Fund. In addition, IRS and Department of the Treasury

10
     I.R.C. § 9503 (b) (5).
                                                                                              Page 16
                The Fuel Excise Tax Compliance Program Has Made Significant
                 Progress, but Program Improvements Are Needed to Increase
                                 Highway Trust Fund Revenue



personnel responsible for the transfer of the funds were not aware of the legislation requiring
such action.
By not having procedures in place to ensure the transfer of collected penalty monies to the
Highway Trust Fund, FHWA programs did not have access to the approximately $1.7 million in
receipts.

Recommendation
Recommendation 6: The Commissioner, SB/SE Division, should ensure the Excise Tax
Program coordinates with the Chief Financial Officer to establish procedures to ensure that funds
collected from the assessment of the failure to file timely and accurate information documents
and/or any other ExFIRS compliance-related penalties are transferred to the Highway Trust
Fund.
       Management’s Response: Management agreed with this recommendation. The
       Excise Tax Program has coordinated with the Chief Financial Officer to ensure that
       collected amounts of assessed ExFIRS penalties are properly certified and transferred to
       the Highway Trust Fund. The certification issue was discussed with representatives of
       the Department of the Treasury, the Financial Management Service, and the Bureau of
       Public Debt, and yielded a procedure for certifying penalty amounts to the Highway Trust
       Fund. The IRS Excise Tax Certification Letter to the Highway Trust Fund, issued
       February 17, 2009, included amounts for penalties collected from 2006 through 2008. By
       September 15, 2009, a subsequent revenue certification will include penalty amounts
       collected that had not been previously certified, and the revenue certifications will be
       completely current, including any penalty amounts assessed that have been collected.
       Office of Audit Comment: While the IRS agreed with this recommendation and has
       taken corrective action, it commented that it had reservations about the validity of the
       outcome measure “Increased Revenue – Actual; $1.7 million” due to the very small case
       sample upon which it relies. Management stated that a random statistical sample of
       penalties assessed and subject to reasonable cause abatement and full penalty appeals
       consideration might have had less significant dollar results.
       The outcome we are reporting is an actual amount, not a projection based on a sample.
       We reviewed 16 taxpayer accounts that were assessed a penalty and determined that the
       IRS collected approximately $1.7 million in penalty assessments as of September 10,
       2008, but the payments were not transferred to the Highway Trust Fund as required.




                                                                                           Page 17
               The Fuel Excise Tax Compliance Program Has Made Significant
                Progress, but Program Improvements Are Needed to Increase
                                Highway Trust Fund Revenue



Improvements Are Needed to Effectively Measure Results of
Compliance Program Activities
The IRS developed the ExFIRS to identify areas with the highest risk for motor fuel excise tax
noncompliance. Program results are reported on weekly or monthly reports containing
information such as the number of terminals converted from the paper/original electronic data
transmission format to the new electronic data transmission format and the status, age, and
results of compliance cases. In addition, the SB/SE Division Excise Tax organization conducts a
quarterly survey (with results reported on an annual basis) of taxpayers with closed cases to
assess customer service. However, these measures do not provide information regarding
program effectiveness in addressing the areas with the highest risk for motor fuel excise tax
noncompliance. Measures and outcomes such as return on investment, change in compliance
rate, and change in excise tax gap would provide better motor fuel excise tax evasion program
effectiveness information.
The Government Performance and Results Act of 1993 stipulates that each program activity will
establish performance goals, measure performance, compare actual performance to the goals, and
report on program performance. The Joint IRS and FHWA Strategy to Address Fuel Tax
Noncompliance executed on January 12, 2006, states that one of the elements of the envisioned
strategy includes development of program measures for the components of the motor fuel tax
evasion program to assess the successes and identify opportunities to redirect resources, if
necessary.
Specific performance measures and program outcomes had not been established for the motor
fuel tax compliance program because IRS management believed the established measures
sufficiently measure program results. Without the implementation of effective program
measures and outcomes, the IRS increases the risk of not being able to determine program
effectiveness, increase compliance, and facilitate a decrease in the overall excise tax gap.

Recommendation
Recommendation 7: The Commissioner, SB/SE Division, should ensure that performance
measures and outcomes such as return on investment, compliance rate, and change in excise tax
gap are developed and used to assess program effectiveness in improving fuel tax compliance.
       Management’s Response: Management agreed in principle with this
       recommendation, and plans to partner with the Office of Research, Analysis, and
       Statistics to assess the proper use of measures that are consistent with other operations
       within the IRS. The Excise Tax Program has established and currently maintains
       program measures necessary to manage compliance resources, monitor enforcement
       results and assure program effectiveness. By October 15, 2010, management will
       evaluate the adequacy of existing program measures.

                                                                                           Page 18
                The Fuel Excise Tax Compliance Program Has Made Significant
                 Progress, but Program Improvements Are Needed to Increase
                                 Highway Trust Fund Revenue



       Management disagreed with the recommendation to use estimated compliance rates and
       estimated changes in the motor fuels excise tax gap as performance measures. While
       such measures can be used as long-term strategic goals, management stated they should
       not be used as performance measures. This is because these measures show the amount
       of tax that is paid voluntarily and timely, but not the true tax liability. The estimated tax
       gap and compliance rate for a particular tax year lags several years behind the
       performance fiscal year, making it impossible to use these as timely performance
       measures. Moreover, both the tax gap and the associated compliance rates are influenced
       by external factors, such as changes in the overall economic conditions, further
       complicating use of these estimates as performance measures.
       Office of Audit Comment: Congress authorized the IRS to use Highway Trust Fund
       monies to expand enforcement efforts, supplement examinations and criminal
       investigations, and develop an excise fuel reporting system (i.e., ExFIRS). Because this
       program and the ExFIRS system are funded by Highway Trust Fund money, we believe
       measures and outcomes such as return on investment, compliance rate, and change in
       excise tax gap are necessary to assess program effectiveness in using Highway Trust
       Fund money and in improving fuel tax compliance.

Reports on Program Results Are Not Fully Representative or Timely
Submitted
The IRS prepared and issued legislatively mandated annual status reports to the DOT and
included the information agreed to in the Memorandum of Understanding between the IRS and
the DOT. However, IRS management did not use data from the official IRS tax accounts
available via the Integrated Data Retrieval System (hereafter referred to as the IRS computer
system) but rather data from another system used to report enforcement revenue for the report.
In addition, updated information for multiple fiscal years is not presented in the annual status
reports. As a result, the failure to file penalty information provided is not fully representative of
program results. For example, in the annual status reports, the IRS reported total failure to file
penalties assessed for Fiscal Years 2006 and 2007 of $6,670,000 and $1,110,000, respectively.
As of September 10, 2008, the IRS computer system reported net annual penalty assessment
amounts of $1,705,000 and $310,000, respectively, a difference of $4,965,000 ($6,670,000 -
$1,705,000) and $800,000 ($1,110,000 - $310,000), respectively. Figures 4 and 5 present the
differing penalty amounts. The annual status reports also do not incorporate the amount of
abatements, assessments collected, and funds transferred to the Highway Trust Fund. In
addition, the status reports are due to the DOT no later than September 30 of each year.
However, the IRS did not issue the Fiscal Years 2006 and 2007 annual status reports until
April 6, 2007, and March 28, 2008, respectively.



                                                                                              Page 19
                The Fuel Excise Tax Compliance Program Has Made Significant
                 Progress, but Program Improvements Are Needed to Increase
                                 Highway Trust Fund Revenue



      Figure 4: Analysis of Fiscal Year 2006 Penalty Information Presented
                          in the Annual Status Report

                                                            Annual Status                 IRS
                 Fiscal Year 2006                         Report to the DOT          Computer System
                    Assessments                                     $6,670,000                 $6,670,000
                     Abatements                                                $0                        $0
              Net Assessments as of
               September 30, 2006                                  $6,670,000*                 $6,670,000
             The information below is not included in the annual status report.
     Abatements After September 30, 2006                                       $0              $4,965,000
              Net Assessments as of
              September 10, 2008**                                  $6,670,000                 $1,705,000

       Amount of Assessments Collected                                         $0              $1,705,000
  Amount of Collected Monies Transferred                                                                 $0
       to the Highway Trust Fund                                               $0
Source: IRS Annual Status Report to the DOT for Fiscal Year 2006, the IRS computer system, and the Chief
Financial Officer’s office.
* This amount reported in the Annual Status Report is not broken down to reflect assessments and abatements.
** Date of the Treasury Inspector General for Tax Administration analysis.




                                                                                                      Page 20
                     The Fuel Excise Tax Compliance Program Has Made Significant
                      Progress, but Program Improvements Are Needed to Increase
                                      Highway Trust Fund Revenue



           Figure 5: Analysis of Fiscal Year 2007 Penalty Information Presented
                               in the Annual Status Report

                                                              Annual Status                IRS
                      Fiscal Year2007                       Report to the DOT         Computer System
                        Assessments                                    $1,340,000
                                                                         Proposed                  $310,000
                         Abatements                                      $230,000                           $0
                   Net Assessments as of
                    September 30, 2007                                 $1,110,000                  $310,000
                  The information below is not included in the annual status report.
          Abatements After September 30, 2007                                  $0                           $0
                   Net Assessments as of
                   September 10, 2008*                                 $1,110,000                  $310,000


           Amount of Assessments Collected                                     $0                   $63,319
      Amount of Collected Monies Transferred
           to the Highway Trust Fund                                           $0                           $0
 Source: IRS Annual Status Report to the DOT for Fiscal Year 2007, the IRS computer system, and the Chief
 Financial Officer’s office.
 * Date of the Treasury Inspector General for Tax Administration analysis.

In addition, only $40,000 (1 percent) of the $3,870,000 in assessments reflected in the ExFIRS
program documentation for Fiscal Year 2008 (as of September 10, 2008) has been recorded in
the IRS computer system.
The Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users 11
requires the IRS to issue annual status reports to the DOT no later than September 30 of each
year. The status reports describe the projects, enforcement activities and results, and provide
summary information on electronic filing results, as well as the number of ExFIRS-generated
field referrals. Office of Management and Budget Circular A-123 requires that management
controls be established to ensure that programs and resources are protected from waste, fraud,
and mismanagement and that timely, reliable, and complete information is obtained, maintained,
reported, and used for decision making.



11
     Pub. L. 109-59 (2005).
                                                                                                      Page 21
                    The Fuel Excise Tax Compliance Program Has Made Significant
                     Progress, but Program Improvements Are Needed to Increase
                                     Highway Trust Fund Revenue



IRS management indicated that they did not submit the annual status reports in a timely manner
because they prepare the reports based on fiscal year-end information and provide a draft copy of
the report to the FHWA for review, resulting in several months’ time to complete the reports.
The IRS also has not prepared the annual status reports based on information reported in the IRS
computer system. As a result, the IRS has provided information in its annual status reports to the
DOT that does not fully represent program results. 12 Without timely and complete information,
program results might not be fully transparent and management might not be able to make sound
decisions to achieve the agency’s strategic goals and objectives to maximize its return on
information technology investments. In addition, without fully representative information,
stakeholders will not have an accurate understanding of the program status and
accomplishments.

Recommendations
The Commissioner, SB/SE Division, should ensure that:
Recommendation 8: Penalty information contained in the annual status report to the DOT is
based on information obtained from the Integrated Data Retrieval System.
           Management’s Response: Management did not agree with this recommendation.
           The IRS Master File accounts supply the data for both the Information Data Retrieval
           System and the Enforcement Revenue Information System. The Information Data
           Retrieval System reports single account results, while the Enforcement Revenue
           Information System reports cumulative results. The Enforcement Revenue Information
           System is, therefore, a more suitable reporting tool for delivering complete fiscal year
           results in the annual fuel tax evasion activities report delivered to the Department of
           Transportation. To maintain consistency with other IRS external reporting, the IRS will
           continue to use the Enforcement Revenue Information System data to report net ExFIRS
           penalty assessments included in the two primary Master File components, Business
           Master File and Individual Master File.
           Office of Audit Comment: While we did not independently validate the cumulative
           results reported in the Enforcement Revenue Information System, our comparison of the
           annual status report information and taxpayer account information obtained from the
           Integrated Data Retrieval System identified inconsistencies. Therefore, we believe the
           Integrated Data Retrieval System is a better source for reporting program results.
Recommendation 9: Excise Tax Program management enhances the annual status reports to
show penalty assessments, abatements, funds collected, and transfers for multiple years to clearly
identify program trends for the Highway Trust Fund, providing greater program transparency
and a more accurate reflection of program results.

12
     Appendix IV provides a summary of the outcome measures.
                                                                                            Page 22
              The Fuel Excise Tax Compliance Program Has Made Significant
               Progress, but Program Improvements Are Needed to Increase
                               Highway Trust Fund Revenue



      Management’s Response: Management agreed with this recommendation. The IRS
      is currently working with the FHWA and the DOT to develop a mutually agreeable report
      format that will incorporate penalty assessments and abatements. The IRS will use this
      format in the next report.
      Office of Audit Comment: While management agreed with this recommendation and
      is working to revise the report format, they questioned the justification for the outcome
      measure “Reliability of Information – Actual; 5,765,000.” Management stated that the
      annual report accurately reflected Fiscal Year-end aggregate data required by the FHWA
      because the additional levels of detail and analysis we recommended have not been
      requested by the FHWA.
      The IRS is required to establish management controls to ensure that timely, reliable, and
      complete information is obtained, maintained, reported, and used for decision making.
      By not providing the detailed information in its annual status report, the IRS did not
      report complete and reliable program results to the FHWA. Figure 5 shows that the
      2007 Fiscal Year-end aggregate data are not accurate, and we believe the amount of the
      outcome measured reported to be valid.
Recommendation 10: Excise Tax Program management issues the annual status report to the
DOT by September 30 as required by law.
      Management’s Response: Management agreed in principle with this
      recommendation. However, the IRS does not have complete data or information for its
      activities for the year as of September 30. In conjunction with the DOT, the IRS has
      determined that submitting a report on September 30 would not provide a complete or
      useful picture of the activity through the entire year and, therefore, the IRS does not
      submit the reports until it has complete information. Management stated they will
      accelerate data analysis in order to deliver future reports by November 30.
      Office of Audit Comment: Accelerating the data analysis should improve the
      timeliness of the annual status reports. However, the IRS should continue to look for
      process improvements to allow issuance of the report by September 30 as required, or
      work with DOT to get the annual reporting requirements changed.




                                                                                        Page 23
                     The Fuel Excise Tax Compliance Program Has Made Significant
                      Progress, but Program Improvements Are Needed to Increase
                                      Highway Trust Fund Revenue



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the ExFIRS has been effectively
implemented to enhance tax enforcement activities and increase Highway Trust Fund revenue.
To accomplish this objective, we:
I.         Determined whether corrective actions identified by management to address prior
           Treasury Inspector General for Tax Administration recommendations in the
           SB/SE Division’s ExFIRS program have been effectively implemented.
           A. Reviewed the associated Joint Audit Management Enterprise System reports to
              identify the current status of the corrective actions for the prior Treasury Inspector
              General for Tax Administration recommendations. Appendix VII presents the prior
              recommendations and the corrective actions taken by management.
           B. Obtained and reviewed documentation to verify that closed corrective actions have
              been effectively completed.
II.        Assessed whether the ExFIRS has been effectively used to improve compliance activities.
           A. Evaluated the effectiveness of the SB/SE Division’s efforts to increase compliance
              with electronic filing requirements mandated by the American Jobs Creation Act
              of 2004. 1
           B. Evaluated the effectiveness of the process established for gathering data to track and
              analyze the movement of fuel.
           C. Evaluated the effectiveness of the fuel strategies developed in support of enforcement
              activities targeting motor fuel excise tax evasion.
           D. Obtained a walkthrough of the ExFIRS data matching and analysis process including
              the criteria for identifying exceptions, analyzing the exception data, and either
              eliminating or referring leads for examination.
           E. Determined whether performance measures were established to assess the results of
              the motor fuel tax examinations.
           F. Evaluated the effectiveness of the penalty assessments and collections process in
              ensuring penalties are properly and timely assessed, tracked, reported, and paid over
              to the Highway Trust Fund.

1
    Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                              Page 24
                     The Fuel Excise Tax Compliance Program Has Made Significant
                      Progress, but Program Improvements Are Needed to Increase
                                      Highway Trust Fund Revenue



               1. Obtained and reviewed the most recent penalty case data to determine the total
                  number of potential cases considered for penalty assessments and the status of the
                  cases.
               2. Determined how cases identified for penalty compliance reviews are worked by
                  interviewing management, reviewing established procedures, and reviewing the
                  case files for cases selected for review.
               3. We identified a judgmental sample of 10 cases for review and obtained and
                  reviewed the closing agreements and examiners’ activity records. We selected
                  three penalty cases involving taxpayer entities with a large number of tax periods
                  for which the IRS chose to expedite resolution using the Fast Track Mediation
                  Alternative Dispute Resolution process. The IRS used the results of these three
                  cases to establish the penalty procedures. For the seven remaining cases selected
                  for review, we identified large and small closed cases based on the number of tax
                  periods. The cases were closed no change, with full Federal Government
                  concession, or partial Federal Government concession.
III.       Used the Integrated Data Retrieval System 2 and an ExFIRS Program Office prepared
           spreadsheet/management report showing penalties and motor fuel tax cases
           (i.e., allegations) identified by the fuel strategies to determine the amount of assessments
           on the identified cases. We further researched penalty cases on the Integrated Data
           Retrieval System to determine the extent and timing of assessments actually made and/or
           the extent and timing of any offsetting abatements. Because we did not use the
           information to make projections, we did not validate the data on these systems.




2
    See Appendix VIII for a glossary of terms.
                                                                                               Page 25
               The Fuel Excise Tax Compliance Program Has Made Significant
                Progress, but Program Improvements Are Needed to Increase
                                Highway Trust Fund Revenue



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Scott Macfarlane, Director
Danny Verneuille, Audit Manager
Mark Carder, Senior Auditor
Beverly Tamanaha, Senior Auditor
Louis Zullo, Senior Auditor
Olivia DeBerry, Auditor




                                                                                       Page 26
              The Fuel Excise Tax Compliance Program Has Made Significant
               Progress, but Program Improvements Are Needed to Increase
                               Highway Trust Fund Revenue



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Specialty Programs, Small Business/Self-Employed Division SE:S:SP
Chief, Excise Tax Operations, Small Business/Self-Employed Division SE:S:SP:EX
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 27
                     The Fuel Excise Tax Compliance Program Has Made Significant
                      Progress, but Program Improvements Are Needed to Increase
                                      Highway Trust Fund Revenue



                                                                                     Appendix IV

                                 Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Increased Revenue – Actual; $1.7 million (see page 16).

Methodology Used to Measure the Reported Benefit:
Our review of 16 taxpayer accounts assessed a penalty authorized by Internal Revenue
Code Section 6725 1 (i.e., for failure to file a report or to furnish information required in a report
required by the ExSTARS) determined that the IRS collected approximately $1.7 million in
penalty assessments as of September 10, 2008. However, the payments were not transferred to
the Highway Trust Fund as required. By not having procedures in place to ensure the transfer of
collected penalty monies to the Highway Trust Fund, FHWA programs did not have access to the
approximately $1.7 million in additional funds.

Type and Value of Outcome Measure:
•     Reliability of Information – Actual; 5,765,000 (see page 19).

Methodology Used to Measure the Reported Benefit:
The Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users 2
requires the IRS to issue annual status reports to the DOT no later than September 30 of each
year. The status reports describe the projects, enforcement activities and results, and provide
summary information on electronic filing results as well as the number of ExFIRS-generated
field referrals. In the annual status reports, the IRS reported that failure to file penalties were
assessed for Fiscal Years 2006 and 2007 totaling $6,670,000 and $1,110,000, respectively.
However, because the IRS Integrated Data Retrieval System is not the source for the report
information and updated information for multiple years is not presented in the annual status
reports, the failure to file penalty information provided is not fully representative of program
results. As of September 10, 2008, the IRS Integrated Data Retrieval System reported Fiscal


1
    26 U.S.C. Sec. 6725.
2
    Pub. L. No. 109-59 (2005).
                                                                                               Page 28
                 The Fuel Excise Tax Compliance Program Has Made Significant
                  Progress, but Program Improvements Are Needed to Increase
                                  Highway Trust Fund Revenue



Years 2006 and 2007 net annual penalty assessment amounts of $1,705,000 and $310,000,
respectively, a difference of $4,965,000 and $800,000, respectively. Figure 1 presents the
differing net penalty amounts.
                              Figure 1: Net Penalty Assessments
                                  Fiscal Years 2006 and 2007

                                   Annual Status            IRS
                                    Report to             Computer             Reported Assessment
          Fiscal Year                the DOT               System               Amount Difference
             2006
  (as of September 30, 2006)            $6,670,000           $6,670,000
             2006
  (as of September 10, 2008)            $6,670,000           $1,705,000                       $4,965,000


             2007
  (as of September 30, 2007)            $1,110,000             $310,000
             2007
  (as of September 10, 2008)            $1,110,000             $310,000                         $800,000
       Total Difference                                                                       $5,765,000
Source: IRS Annual Status Report to the DOT for Fiscal Years 2006 and 2007 and the IRS Integrated Data
Retrieval System.




                                                                                                    Page 29
                   The Fuel Excise Tax Compliance Program Has Made Significant
                    Progress, but Program Improvements Are Needed to Increase
                                    Highway Trust Fund Revenue



                                                                                                 Appendix V

                      Legislative Changes That Impact
                            Fuel Tax Compliance

    Legislative changes have been enacted over the years to move the points of taxation on motor
    fuels with efforts to reduce evasion of tax. More recent legislation has been enacted in
    response to environmental concerns, dependency on foreign oil, and limited supply of fossil
    fuels. These changes expanded the scope and administration of the National Fuel Excise Tax
    Program. Several of the major changes are listed below.
        •    The Tax Reform Act of 1986 1 generally moved the point of taxation on gasoline from
             registered producer, which included registered wholesale distributors, to the earlier of
             the removal or sale of gasoline by the terminal operator.
        •    The Revenue Act of 1987 2 moved the diesel fuel tax from the retailer to the registered
             producer, which included registered wholesale distributors.
        •    The Omnibus Budget Reconciliation Act of 1993 3 changed the point of taxation for
             diesel fuel from the registered wholesale distributor to the removal from the bulk
             transfer/terminal 4 system. This Act provided that diesel fuel was exempt from tax
             only if it was indelibly dyed under IRS regulations.
        •    The Taxpayer Relief Act of 1997 5 extended the diesel fuel excise tax rules to
             kerosene. Kerosene is generally taxed when it is removed from a terminal rack unless
             indelibly dyed.
        •    The American Jobs Creation Act of 2004 6 changed the tax treatment of kerosene used
             in aviation, required diesel fuel to be dyed by mechanical injection (under
             Department of the Treasury regulations), expanded the number of assessable penalties
             related to taxable fuel, instituted electronic filing in several areas, and expanded the
             scope of incentives for renewable and alternative fuels.


1
  Pub. L. No. 99-514, 100 Stat. 2085 (codified as amended in scattered sections of 16 U.S.C., 19 U.S.C., 25 U.S.C.,
26 U.S.C., 28 U.S.C., 29 U.S.C., 42 U.S.C., 46 U.S.C., and 49 U.S.C.).
2
  Pub. L. No. 100-203 (1987).
3
  Pub. L. No. 103-66 (1993).
4
  See Appendix VIII for a glossary of terms.
5
  Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of 5 U.S.C., 19 U.S.C., 26 U.S.C.,
29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
6
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                                           Page 30
                     The Fuel Excise Tax Compliance Program Has Made Significant
                      Progress, but Program Improvements Are Needed to Increase
                                      Highway Trust Fund Revenue



           •   The Energy Tax Incentives Act of 2005 7 contains enacted legislation involving water
               emulsion diesel, renewable diesel, the reinstatement of the oil spill tax, and expanded
               the scope of the Leaking Underground Storage Tank tax.
           •   The Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for
               Users 8 enacted provisions for volumetric alternative fuels credit, tax exemptions for
               aerial applicators and fixed wing aircraft engaged in forestry, treatment of kerosene
               used in aviation, re-registration rules for change of ownership, and penalties with
               respect to certain adulterated fuels.
Note: These changes are not all inclusive.




7
    Pub. L. No. 109-58 (2005).
8
    Pub. L. No. 109-59 (2005).
                                                                                              Page 31
                     The Fuel Excise Tax Compliance Program Has Made Significant
                      Progress, but Program Improvements Are Needed to Increase
                                      Highway Trust Fund Revenue



                                                                                   Appendix VI

                          Subsystems of the Excise Files
                           Information Retrieval System

The ExFIRS is an umbrella system made up of six subsystems that support the collection of
motor fuel industry information, automated analysis of this information, and identification of
areas with the highest risk for nonpayment of excise taxes.
1. Excise Summary Terminal Activity Reporting System – A repository of monthly information
   documents from fuel terminal operators and carriers detailing the receipts and disbursements
   of liquid products passing through a taxable fuel storage and distribution facility. The
   information documents can be filed on paper or electronically, 1 with certain filings statutorily
   required to be made electronically. Return information is provided to the States in
   accordance with appropriate disclosure laws.
2. Excise Tax Registration Authentication System – A centralized database containing
   information relating to the Application for Registration (For Certain Excise Tax Activities)
   (Form 637). It provides centralized data entry (key entry and scanned), monitoring, and
   reporting of all Form 637 registrants. Some registrants are required to be registered because
   of their status (e.g., refiners and terminal operators) while other taxpayers are required to be
   registered to obtain a benefit (e.g., certain ultimate vendors of diesel fuel).
3. Excise Fuel Online Network – An integrated case processing and tracking system used by the
   fuel compliance officers and group managers for the Dyed Diesel Fuel Program.
4. Excise Tax Online Exchange – A repository of State records housed by the IRS. The data
   come from the States but are available to other States and the IRS, under disclosure
   agreements.
5. Excise Tax Agent Center – A system that automates the processes used to work cases/returns
   selected for review. A case will move from classification, to the group manager, to the
   revenue agent who will conduct the review. Revenue agents and managers will work/review
   cases and save work in progress on the user workstation and on the ExFIRS.
6. Excise Management Information System Data Warehouse and Operational Database – A
   database that provides a common data management solution, from disparate legacy databases
   and information stores, created from a variety of sources. It contains information gathered



1
    Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                            Page 32
           The Fuel Excise Tax Compliance Program Has Made Significant
            Progress, but Program Improvements Are Needed to Increase
                            Highway Trust Fund Revenue



from the various ExFIRS subsystems, as well as IRS sources and United States Customs
Service import information, pertaining to taxable commodities.




                                                                                 Page 33
                  The Fuel Excise Tax Compliance Program Has Made Significant
                   Progress, but Program Improvements Are Needed to Increase
                                   Highway Trust Fund Revenue



                                                                                           Appendix VII

     Prior Audit Report Recommendations Relating to
         the Compliance Program and Associated
              Corrective Actions Completed

In a prior audit report,1 we made seven recommendations (four compliance program and three
systems development). The IRS identified eight corrective actions in response to the
recommendations and reported that the corrective actions had been completed and closed as of
September 7, 2006. Five of the eight corrective actions related to the compliance program
recommendations. The remaining three corrective actions relate to the ExFIRS system
development activities and will be reviewed in a separate audit.
We recommended that the Commissioner, SB/SE Division, should:
1. Work with the Chief Information Officer to determine which executive steering committee
   will be responsible for the ExFIRS Project while the Project is being developed and include a
   representative from the FHWA on the executive steering committee. When the ExFIRS
   Project moves to operations and maintenance status, the FHWA should be involved with
   program management and executive oversight and be provided periodic status reports as
   requested by the FHWA to assess the progress of the ExFIRS Project and support continued
   funding. The planned revisions to the Memorandum of Understanding between the IRS and
   the FHWA should include these requirements.
    Corrective action: In November 2005, the IRS began including representatives from the
    FHWA in the ExFIRS system development executive steering committee meetings.
    Corrective action: Bi-monthly conference calls and quarterly meetings were held with the
    FHWA to identify, discuss, and resolve ongoing issues, problems, and/or concerns.
    Beginning in February 2007, monthly meetings were held with representatives from the
    FHWA and the IRS’ Fuel Territory, Excise program, and ExFIRS program personnel where
    several aspects of the Excise Tax Program as well as fuel tax evasion-related efforts initiated
    by the DOT are discussed. The IRS also submits annual status reports to the Secretary of the
    DOT describing the DOT-funded projects and enforcement activities and results. In addition,
    the IRS provides information on electronic filing and the number of ExFIRS-generated field
    referrals. A Memorandum of Understanding between the IRS and the FHWA was signed in
    January 2006 and included requirements governing communications (e.g., requiring that

1
 The Excise Files Information Retrieval System Has Not Been Effectively Implemented (Reference
Number 2006-20-001, dated October 2005).
                                                                                                 Page 34
                     The Fuel Excise Tax Compliance Program Has Made Significant
                      Progress, but Program Improvements Are Needed to Increase
                                      Highway Trust Fund Revenue



      bi-monthly conference calls and quarterly meetings be conducted to identify, discuss, and
      resolve ongoing issues, problems, and/or concerns).
2. Develop a plan and schedule as soon as possible for initiating an examination program based
   on identified discrepancies between the information documents and the tax returns.
      Corrective action: On November 28, 2005, the IRS established the Excise Compliance
      Operations organization. In addition, the National Fuel Territory organization was
      established to monitor and improve compliance for the excise tax on fuels with plans to use
      forensic accounting techniques to ensure fuel tax compliance. The IRS also identified seven
      motor fuel strategies to better understand areas of fuel tax compliance and noncompliance.
      Using these strategies, fuel policy analysts began conducting matching analysis of ExSTARS
      and United States Customs Service data to Quarterly Federal Excise Tax Return (Form 720)
      filings and referring leads for field examinations in April 2006. As of April 2008,
      approximately $134,789,712 had been assessed.
3. Develop a schedule for converting all filers to the new data transmission format and begin
   assessing the $10,000 penalty for failure to file complete and accurate information
   documents, as authorized by the American Jobs Creation Act of 2004. 2
      Corrective action: During Fiscal Years 2006 and 2007, the IRS implemented broad-based
      and individual outreach and education initiatives for businesses filing paper returns to ensure
      awareness of the new electronic filing requirements and a smooth transition to the new
      electronic filing format. In addition, letters were issued to the fuel industry regarding failure
      to file and failure to register penalties and the schedule for conversion to the new electronic
      filing format. Onsite visitations were made to ExSTARS software vendors and third-party
      transmitters regarding compliance. The ExFIRS Compliance Team also began performing
      penalty reviews educating taxpayers regarding excise tax filing requirements and using
      information from the ExSTARS to identify excise tax non-filers and assessing penalties for
      noncompliance.
4. Clarify whether or not an objective of the ExSTARS is to eliminate the requirement for
   duplicate filing of fuel transaction data by the motor fuel industry to both the IRS and the
   States by either identifying and addressing the issues that prevent single point of filing or
   removing the stated objective from the Motor Fuel Excise Tax Electronic Data Interchange
   Guide (Publication 3536).
      Corrective action: Certain IRS publications state that the ExFIRS might facilitate single
      point of filing in those States having the same tax point as the Federal Excise Tax. To avoid


2
    Pub. L. No. 108-357, 118 Stat. 1418 (2004).



                                                                                               Page 35
            The Fuel Excise Tax Compliance Program Has Made Significant
             Progress, but Program Improvements Are Needed to Increase
                             Highway Trust Fund Revenue



any confusion in this area, references to single point of filing were removed from the
publications.
However, during the course of the audit, we notified IRS management that the IRS web site
made reference to single point of filing. When we discussed the issue with IRS management,
they took appropriate action and removed the reference to single point of filing from the IRS
web site.




                                                                                         Page 36
               The Fuel Excise Tax Compliance Program Has Made Significant
                Progress, but Program Improvements Are Needed to Increase
                                Highway Trust Fund Revenue



                                                                            Appendix VIII

                              Glossary of Terms

Appeals Mediation Process          A process involving an Appeals Officer who has been
                                   trained in mediation, the Taxpayer, and IRS Examination
                                   and/or Collection Division personnel that is used to help
                                   facilitate communication and resolve unagreed issue(s).
Dyed Diesel Fuel Program           A program that exempts diesel fuel and kerosene from tax
                                   if the fuel is dyed red (usually at a refinery or terminal)
                                   under Department of the Treasury regulations and used for
                                   prescribed nontaxable off-road purposes, such as in
                                   refrigeration units on trailers, off-road diesel-powered
                                   equipment, and home heating.
Examination Returns Control System A system that provides detailed management information
                                   on tax returns under examination and tracks employee
                                   time spent on the cases.
Excise Tax e-File                  A system that supports electronic filing of the Quarterly
and Compliance System              Federal Excise Tax Return (Form 720), Heavy Highway
                                   Vehicle Use Tax Return (Form 2290), and Claim for
                                   Refund of Excise Taxes (Form 8849).
Integrated Data Retrieval System   An IRS computer system capable of retrieving or updating
                                   stored information; it works in conjunction with a
                                   taxpayer’s account records.
Joint IRS and FHWA Strategy to     The United States Senate Appropriations Committee, in
Address Fuel Tax Noncompliance     Report 108-342, requested that the Secretaries of the
                                   Departments of the Treasury and Transportation develop
                                   and submit a strengthened motor fuel tax evasion
                                   compliance and enforcement strategy. The strategy is to
                                   include coordinated joint operational initiatives to prevent,
                                   detect, and shut down motor fuel tax evasion schemes
                                   across the country.




                                                                                       Page 37
                The Fuel Excise Tax Compliance Program Has Made Significant
                 Progress, but Program Improvements Are Needed to Increase
                                 Highway Trust Fund Revenue



Joint Operations Center         A data center the IRS is responsible for establishing for
                                the joint collection, analysis, and sharing of information
                                on fuel distribution and compliance or noncompliance
                                with fuel taxes between the appropriate State agencies and
                                the IRS.
Memorandum of Understanding     A document that expresses mutual accord on an issue
                                between two or more parties. It identifies the contracting
                                parties, spells out the subject matter of the agreement and
                                its objectives, summarizes the essential terms of the
                                agreement, and is signed by the contracting parties.
Refinery                        A facility used to produce taxable fuel and from which
                                taxable fuel may be removed by pipeline, by vessel, or at a
                                rack.
Return on Investment            The net profit or loss in an accounting period divided by
                                the capital investment used during the period, usually
                                expressed as an annual percentage return.
Tax Gap                         The difference between the annual Federal tax obligation
                                and the amount of tax that taxpayers pay voluntarily and
                                timely.
Taxpayer Advocate Service       An independent organization within the IRS that helps
                                taxpayers resolve problems with the IRS and recommends
                                changes to prevent problems.
Terminal                        A storage and distribution facility for taxable fuel that is
                                supplied by pipeline or vessel and from which taxable fuel
                                may be removed at a terminal rack.
Terminal Rack                   A mechanism capable of delivering taxable fuel into a
                                means of transport other than a pipeline or vessel.
Trust funds                     Accounts established by law to hold receipts, such as
                                specific taxes or revenue, collected by the Federal
                                Government for financing special programs.
Vessel                          A watercraft, other than a seaplane on the water, used or
                                capable of being used as a means of transportation on
                                water (e.g., a ship).




                                                                                    Page 38
   The Fuel Excise Tax Compliance Program Has Made Significant
    Progress, but Program Improvements Are Needed to Increase
                    Highway Trust Fund Revenue



                                                  Appendix IX

Management’s Response to the Draft Report




                                                         Page 39
The Fuel Excise Tax Compliance Program Has Made Significant
 Progress, but Program Improvements Are Needed to Increase
                 Highway Trust Fund Revenue




                                                      Page 40
The Fuel Excise Tax Compliance Program Has Made Significant
 Progress, but Program Improvements Are Needed to Increase
                 Highway Trust Fund Revenue




                                                      Page 41
The Fuel Excise Tax Compliance Program Has Made Significant
 Progress, but Program Improvements Are Needed to Increase
                 Highway Trust Fund Revenue




                                                      Page 42
The Fuel Excise Tax Compliance Program Has Made Significant
 Progress, but Program Improvements Are Needed to Increase
                 Highway Trust Fund Revenue




                                                      Page 43
The Fuel Excise Tax Compliance Program Has Made Significant
 Progress, but Program Improvements Are Needed to Increase
                 Highway Trust Fund Revenue




                                                      Page 44
The Fuel Excise Tax Compliance Program Has Made Significant
 Progress, but Program Improvements Are Needed to Increase
                 Highway Trust Fund Revenue




                                                      Page 45
The Fuel Excise Tax Compliance Program Has Made Significant
 Progress, but Program Improvements Are Needed to Increase
                 Highway Trust Fund Revenue




                                                      Page 46
The Fuel Excise Tax Compliance Program Has Made Significant
 Progress, but Program Improvements Are Needed to Increase
                 Highway Trust Fund Revenue




                                                      Page 47
